                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS


                           CLOSEOUT MEMORANDUM


Case Number: A06090045


    We received a n allegation of a possible conflict of interests (COI) violation against
    two former NSF Program Managers.1 The two Program Mangers left NSF a t the
    same time and submitted a collaborative proposal2 less t h a n 1year after they left
    NSF. After the review, the proposal was recommended for funding, and both PIS
    named substitute PIS.
    NSF's guidance for former staff3 describes prohibitions against representational
    dealings with NSF for 1year. However, it is not considered a representational
    dealing to: prepare a proposal, be listed a s a PI or co-PI on a proposal or award, or
    participate in research under a n NSF award.4 Thus, there is no COI violation for
    the subjects' submission of a proposal. Although they are allowed to write, submit,
    and lead the research, they are not allowed to negotiate with the NSF Program
    Manager about the budget, so t h a t is why they named substitute PIS to do so.
    Accordingly, this case is closed.




        1 (footnote redacted).
        2 (footnote redacted).
        3 A Guide to Post-Employment Restrictions for Former NSF Staff.
        4 Ibid., Part 111-Involvement with Proposals and Awards after NSF Service   5 20 (e) Permitted
    research and educational activities.
